No. 20-1607

In the Supreme Court of the United States
MICHIGAN
Petitioner,
v.
ANTHONY MICHAEL OWEN,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
MICHIGAN COURT OF APPEALS

BRIEF IN OPPOSITION
EDWARD J. STERNISHA
LAW OFFICE OF EDWARD J.
STERNISHA
330 Fuller Ave NE
Grand Rapids, MI 49503

LISA S. BLATT
Counsel of Record
CHARLES L. MCCLOUD
KIMBERLY BROECKER
HELEN E. WHITE*
WILLIAMS & CONNOLLY
LLP
725 Twelfth Street, NW
Washington, D.C. 20005

*Admitted to practice only in MA. Practice in the District of Columbia supervised by D.C. bar members pursuant to D.C. App. R. 49(c)(8).

QUESTION PRESENTED

Whether the Michigan Court of Appeals correctly
held that, under the totality of the circumstances, a police
officer lacked an objectively reasonable belief that probable cause existed to initiate a traffic stop of respondent’s
vehicle.

(I)

II
TABLE OF CONTENTS

Page

INTRODUCTION ............................................................... 1
STATEMENT ...................................................................... 2
A. Factual Background ............................................... 2
B. Proceedings Below ................................................. 3
REASONS FOR DENYING THE PETITION .............. 5
I. The Michigan Court of Appeals’ Decision Is
Correct ........................................................................... 6
II. This Case Does Not Implicate Any Conflict in
the Lower Courts........................................................ 12
III. This Case Does Not Warrant This Court’s
Review.......................................................................... 15
CONCLUSION .................................................................. 17

III
TABLE OF AUTHORITIES

Page

Cases:
Ashcroft v. al-Kidd, 563 U.S. 731 (2011) ................ 7, 12
Atwood v. Pianalto,
350 P.3d 1048 (Kan. 2015) ................................ 12, 13
Harrison v. State, 800 So. 2d 1134 (Miss. 2001)........ 13
Heien v. North Carolina,
574 U.S. 54 (2014) .......................................... passim
United States v. Alvarado-Zarza,
782 F.3d 246 (5th Cir. 2015) .................................. 14
United States v. Blackburn,
No. 01-CR-86, 2002 WL 32693714 (N.D.
Okla. Feb. 20, 2002) .......................................... 12, 13
United States v. Stanbridge, 813 F.3d 1032
(7th Cir. 2016) ................................................... 14, 15
Constitution and Statute:
U.S. Const., amend. IV ....................................... passim
Michigan Vehicle Code
§ 257.627 ................................................................ 3, 4
§ 257.628(1)................................................................ 7

In the Supreme Court of the United States
MICHIGAN
Petitioner,
v.
ANTHONY MICHAEL OWEN,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
MICHIGAN COURT OF APPEALS

BRIEF IN OPPOSITION
INTRODUCTION

Petitioner asks this Court to grant certiorari to resolve a supposed conflict over the application of Heien v.
North Carolina, 574 U.S. 54 (2014), in cases where officers reasonably misinterpret an unambiguous statute. But
the key premises underlying the petition are wrong. In
the decision below, the Michigan Court of Appeals explicitly found that the officer who initiated a traffic stop of respondent acted unreasonably, because he failed to know
what “a reasonably competent law enforcement officer
should have known”—namely, the speed limit on the road
where the stop occurred. Pet.App.16. 1 That factbound
holding is clearly correct. And it does not conflict with any
of the decisions identified by Petitioner, several of which
The Petition Appendix is not internally paginated. Citations to
“Pet.App.__” refer to pages of the PDF version of the Appendix submitted to the Court by Petitioner.

1

(1)

2
pre-date Heien and thus necessarily do not apply that decision.
Even if this case presented the question Petitioner
poses, the petition would not satisfy this Court’s criteria
for review. Although the Michigan Court of Appeals concluded that the statute at issue was unambiguous, it identified numerous other circumstances supporting its conclusion that the officer lacked reasonable suspicion. The
question that Petitioner claims is presented is therefore
not outcome determinative. Nor has Petitioner established that any confusion over the application of Heien—
assuming such confusion exists—is of such practical importance that it demands this Court’s review. The Court
should deny certiorari.
STATEMENT

A.

Factual Background

One evening in September 2015, respondent Anthony
Michael Owen was driving from his home to a friend’s
house in the Village of Saranac, Michigan. Pet.App.29. A
deputy sheriff, Derrick Madsen, saw Mr. Owen travel on
Summit Street and then turn left onto Parsonage Road.
Pet.App.30. The southbound portion of Parsonage Road
where Mr. Owen was driving did not have any signs indicating a speed limit. Pet.App.30.
Using his radar, Deputy Madsen determined that Mr.
Owen was driving at 43 miles per hour and initiated a traffic stop. Pet.App.12. Deputy Madsen later testified that
he had stopped Mr. Owen because he believed the speed
limit on the portion of Parsonage Road where Mr. Owen
was driving to be 25 miles per hour. Pet.App.33. After
performing a series of field sobriety tests and giving Mr.
Owen a breathalyzer test, Deputy Madsen placed Mr.
Owen under arrest. Pet.App.12. Mr. Owen informed
Deputy Madsen during the arrest that he was licensed to

3
carry a concealed weapon and that he had his handgun on
his person.
B. Proceedings Below

1. Mr. Owen was charged with impaired driving and
carrying a concealed firearm while intoxicated.
Pet.App.12. He moved to suppress the evidence from the
traffic stop, arguing that the stop had been unlawful because the speed limit was 55 miles per hour, not 25 miles
per hour. Pet.App.12. The district court denied the motion. Pet.App.12. Mr. Owen appealed to the circuit court,
which remanded for an evidentiary hearing to determine
the speed limit on Parsonage Road. Pet.App.2.
At the evidentiary hearing, Mr. Owen offered testimony from Lieutenant Gary Megge, a 22-year veteran of
the Michigan State Police. Lieutenant Megge works in
the department’s traffic services section and trains new
troopers on how and why speed limits are established.
Pet.App.115. He testified that under section 627 of the
Michigan Vehicle Code, the “general speed limit” on highways is 55 miles per hour. Pet.App.120; see Mich. Comp.
Laws § 257.627. Modifying that general speed limit requires performing a “speed study,” entering a traffic control order, and posting appropriate signage listing the
new speed limit, none of which the Village of Saranac had
done for Parsonage Road. Pet.App.119. As a result, Lieutenant Megge testified, “[t]he enforceable speed limit”
where Mr. Owen was arrested was 55 miles per hour.
Pet.App.120.
At the conclusion of the hearing the district court
found “that the uniform traffic code applies here, and that
by default, the speed limit is 55.” Pet.App.139. The court
subsequently entered an order granting Mr. Owen’s motion to suppress and dismissing the case. Pet.App.5.
2. Petitioner appealed to the circuit court, which initially affirmed the suppression order.
Pet.App.7.

4
Petitioner then moved for reconsideration. Petitioner
contended that the law establishing speed limits was ambiguous, and therefore Deputy Madsen’s mistake had
been reasonable, in light of a 2004 law setting the speed
limit in residential areas at 25 miles per hour. Although
Petitioner acknowledged the 2004 law it pointed to had
been superseded in 2006 by the operative version of section 627, Petitioner nevertheless argued that it was reasonable for Deputy Madsen to believe that the speed limit
remained 25 miles per hour nearly ten years later when
he arrested Mr. Owen. The circuit court granted Petitioner’s request for rehearing and vacated the suppression order. Pet.App.9.
3. Mr. Owen entered a conditional plea of guilty in
June 2017, and also sought leave to appeal the circuit
court’s decision. Pet.App.12. The Michigan Court of Appeals denied leave, and Mr. Owen sought leave to appeal
to the Michigan Supreme Court. The supreme court remanded the case for consideration in the court of appeals
in lieu of granting leave. Pet.App.11.
4. The Michigan Court of Appeals reversed the circuit court’s order. Pet.App.12-18.
As relevant here, the court of appeals agreed with Mr.
Owen that Deputy Madsen had unlawfully stopped Mr.
Owen, in violation of his Fourth Amendment rights. The
court explained that under Michigan law, any modification
of the statutorily defined general speed limit “had to be a
matter of public record.” Pet.App.16. The Village of Saranac “had no public record of any modification of the
statutorily defined speed limits.” Pet.App.16. The evidentiary record “also established that the road where the
traffic stop occurred lacked any speed limit signage.”
Pet.App.16. Accordingly, the court held, the speed limit
was 55 miles per hour, and Mr. Owen had been lawfully

5
traveling on the road at the time Deputy Madsen stopped
him. Pet.App.17.
In reaching its holding, the court of appeals rejected
Petitioner’s argument that Deputy Madsen had made a
reasonable mistake of law under Heien v. North Carolina,
574 U.S. 54 (2014). The court noted that Deputy Madsen
had “admitted that he knew that the speed limit was not
posted on the road,” “admitted that no speed limit was
posted where he stopped” Mr. Owen, and admitted that
“he knew that at that location because it was not posted
that the speed limit was 55 miles per hour.” Pet.App.16.
The record thus established “that the deputy failed to
know the basic Michigan law provided under the Motor
Vehicle code, the very law he was tasked to enforce.”
Pet.App.17.
Based on “the totality of the circumstances,”
Pet.App.17, the court concluded that “[a] reasonably competent law enforcement officer should have known” that
the Michigan Vehicle Code “did not permit an officer to
stop a vehicle on an unposted road for exceeding the speed
limit based on a belief that the road had a 25-mile-perhour speed limit,” Pet.App.16. The court remanded for
further proceedings consistent with its opinion.
5. The Michigan Supreme Court denied Petitioner’s
petition for review. Pet.App.19. This petition followed.
REASONS FOR DENYING THE PETITION

The Michigan Court of Appeals correctly held that
Deputy Madsen lacked reasonable suspicion to perform a
traffic stop on Mr. Owen. This Court has made clear that
mistakes of law may support reasonable suspicion only
when they are “objectively reasonable.” Heien v. North
Carolina, 574 U.S. 54, 66 (2014). The court of appeals
faithfully applied that standard here and correctly concluded, based on the totality of the circumstances, that a
“reasonably competent law enforcement officer should

6
have known that” the speed limit on the portion of Parsonage Road where Mr. Owen was driving was 55 miles
per hour. Pet.App.16.
Petitioner argues that the court of appeals’ holding
conflicts with decisions from other courts that have found
mistakes reasonable in cases where the allegedly violated
law was unambiguous. But the court of appeals did not
rest its holding on any statutory ambiguity requirement.
Rather, as outlined in Heien, the court considered all of
the relevant circumstances, including but not limited to
statutory clarity, and concluded that the officer acted unreasonably. This holding does not conflict with any of the
decisions Petitioner cites, all of which—like the decision
below—turned on case-specific assessments of reasonableness.
This case would be unsuitable for review even were
Petitioner correct about the existence of confusion in the
lower courts. Nothing in the decision below suggests that
the Michigan Court of Appeals has made statutory ambiguity a prerequisite for application of Heien. Its holding
was based instead of the particular facts of this case.
There is no reason for this Court to review those factbound determinations. Nor is there any reason to believe
the outcome of this case would be different if the Court
agreed with Petitioner on the question it claims the petition presents.
I.

The Michigan Court of Appeals’ Decision Is Correct

1. All agree that Mr. Owen was driving below the operative 55-mile-per-hour speed limit on the southbound
portion of Parsonage Road when he was stopped by Deputy Madsen. Pet. 3. Yet Petitioner claimed below that
there was reasonable suspicion to stop Mr. Owen based on
the deputy’s erroneous belief that the speed limit on the
southbound portion of Parsonage Road was 25 miles per
hour. The deputy assumed that was the speed limit

7
because the area was residential and because other roads
in Saranac Village, including on the northbound portion of
Parsonage Road, had 25-mile-per-hour speed limit signs.
The Michigan Court of Appeals correctly rejected that
claim, holding the deputy’s “unsupported hunch,”
Pet.App.17, to be unreasonable because “no sign posted
anywhere . . . provided that the village had a general speed
limit” and because such general village speed limits had
been illegal in Michigan for nearly 10 years before Deputy
Madsen stopped Mr. Owen. Pet.App.16.
The court of appeals rightly based its conclusion on
its reading of this Court’s decision in Heien v. North Carolina, which held that mistakes of law may support reasonable suspicion only when they are “objectively reasonable.” 574 U.S. 54, 66 (2014). Under Heien, the “subjective understanding of the particular officer involved” is irrelevant, id.; what matters is what would be “objectively
reasonable for an officer in [the deputy’s] position to
think,” id. at 68 (2014) (emphasis added). In the context
of a mistake of law, a court looks to whether an interpretation of the relevant law consistent with the officer’s belief is “at least . . . reasonable.” Id.
Heien forecloses Petitioner’s argument that the deputy’s mistake was reasonable. Petitioner concedes (at 5)
not merely that Michigan Vehicle Code section 257.628(1)
sets speed limits for unposted roads at 55 miles per hour,
but that it “clear[ly]” does so. Thus, all the deputy needed
to do to avoid this mistake of law was consult the Michigan
Vehicle Code—no lawyerly interpretive skills needed.
The test for objective reasonableness is “not as forgiving
as the one employed” for qualified immunity, Heien, 574
U.S. at 67, yet even that more forgiving standard would
not immunize a mistake where the operative law is clear
on its face. See Ashcroft v. al-Kidd, 563 U.S. 731, 741
(2011) (qualified immunity not warranted where the “statutory or constitutional question [is] beyond debate”). So

8
Deputy Madsen’s mistake must also fail the more demanding objective reasonableness test.
Deeming the officer’s mistake reasonable also conflicts with the limits this Court set on Heien’s narrow exception for reasonable mistakes. The Court cautioned
that its decision would not “discourage officers from
learning the law,” Heien, 574 U.S. at 66, because even under that standard “an officer can gain no Fourth Amendment advantage through a sloppy study of the laws he is
dutybound to enforce,” id. at 67. Yet that is exactly the
result that Petitioner’s position would produce. Officers
could simply rely on their own ignorance and unsupported
hunches about what the law does and does not allow to
generate reasonable suspicion. That is especially true
here, where the deputy in question was a local officer specifically tasked with enforcing traffic laws and conceded
that he should be expected to know the speed limit prior
to enforcing it. Pet.App.17. Indeed, it is hard to think of
an officer more “dutybound to enforce” a village’s traffic
laws than a deputy sheriff. Heien, 574 U.S. at 67.
2. Petitioner’s claims of error are equal parts factbound and wrong.
Petitioner’s chief complaint (at 10) is that the lower
court “ignored facts like the 25 MPH sign going the other
way on this residential street inside a village.” In Petitioner’s view, the 25 MPH sign the other way and the fact
that the “road is inside a village where the speed limit is
25 almost everywhere else” made it reasonable for the officer to try to enforce an unposted speed limit against a
motorist with no notice of the limit. Pet. 5-6. But the
premise of Petitioner’s argument—that the court of appeals “ignored” this information—is mistaken. The lower
court expressly noted that the deputy’s belief was based
on the fact that “25-mile-per-hour speed limits were
posted on some streets entering Saranac,” Pet.App.16,

9
which would include the northbound section of Parsonage
Road, see Pet.App.35. It simply found Deputy Madsen’s
reliance on that fact unreasonable, as the Village could not
lawfully establish a general village speed limit and nowhere purported to do so. And that result is clearly correct: a law enforcement officer cannot bootstrap his way
into reasonableness by layering one mistake of law atop
another. Nor may he double-down on enforcing an unposted speed limit based by assuming a different, villagewide unposted speed limit applies.
Petitioner further contends (at 9) that it was nevertheless reasonable for Deputy Madsen to think the speed
limit was 25 because, years after the stop here, the Michigan legislature changed the motor vehicle code to set a
default 25 mile per hour speed limit in local street systems. That move, according to Petitioner (at 9), shows a
25 mile per hour speed limit is “common sense” in residential areas. Not so. A change that occurred four years
after the stop in question is irrelevant to whether the deputy’s application of the law at the time of the stop was “objectively reasonable.” What is more, Petitioner’s position
suggests that officers may nullify their obligation to understand and enforce the law as written so long as they
can identify post hoc policy justifications for doing so. Petitioner offers no support for the assertion that such extralegal considerations are relevant in assessing reasonableness, nor does anything in Heien endorse such an approach.
Petitioner also resists the court of appeals’ reasoning
by asserting (at 8) that the residential nature of the area
and the other speed limit signs mean the deputy “made a
mistake that just about anyone would have made.” But
this kind of fact-specific dispute about how to weigh the
totality of circumstances does not warrant this court’s intervention. In any event, Petitioner is wrong on the law.
The Fourth Amendment is not concerned with what

10
untrained individuals on the street might think or what
set of laws “make sense”; the operative question is what
would be “objectively reasonable for an officer in [the deputy’s] position to think” of the law as written. Heien, 574
U.S. at 68 (emphasis added). And as already explained,
the deputy’s mistake here flunks this more demanding
standard.
Finally, Petitioner repeatedly (at 5, 6, 9, 10, 11, 12)
makes the irrelevant argument that the deputy’s mistake
was reasonable because it “took the lower courts five
months to figure out” that the speed limit on the southbound portion of Parsonage Road was 55 miles per hour.
But that argument assumes, with no basis, that the length
of the proceedings is attributable to the complexity of the
legal issue rather than simple court congestion. Regardless, the length of time it took the courts to document facts
that were known to the officer the night of the stop has no
bearing on whether the officer’s application of law to those
facts was reasonable.
3.a. Petitioner further characterizes this case as presenting the question of whether a mistake of law can be
reasonable even “where the law (once discovered) is clear,
but the circumstances make applying it uncertain.” Pet.
II. Petitioner suggests that this Court should grant certiorari to resolve a purported conflict over whether
Heien’s reasonableness framework applies in cases where
the underlying law is clear. See Pet. 7-8. The court of appeals, however, never purported to hold that the clarity of
the statute alone rendered the officer’s conduct unlawful.
Instead, the court of appeals explained that, “the totality
of the circumstances established” that the deputy’s mistaken belief was based “on an unsupported hunch that the
speed limit was 25 miles per hour because other roads
were posted elsewhere in the village with that speed
limit.” Pet.App.17. According to the court of appeals, that
“unsupported hunch” was unreasonable not just because

11
the Michigan Vehicle Code clearly prohibits village-wide
speed limits, but also because no sign purporting to give
notice of such a village-wide speed limit was posted anywhere in town. Pet.App.16-17.
Thus, even if the law were ambiguous as to whether
Saranac Village could have established a village-wide
speed limit of 25 miles per hour, it still would have been
unreasonable for Deputy Madsen to infer that the village
had done so silently. Whether mistaken applications of
clear statutes could be reasonable in some circumstances
has no bearing on the outcome of this case. The question
the Petitioner claims is presented by this case is therefore
neither squarely presented nor dispositive.
b. In any event, the better rule is that an officer’s mistake of law cannot be objectively reasonable where the
statute is unambiguous. Accord Heien, 574 U.S. at 70
(Kagan, J., concurring). Petitioner itself concedes that
such an approach “may be generally correct.” Pet. 8. And
for good reason: In Heien, the Court evaluated the objective reasonableness of the officer’s conduct by looking
only to whether there was some basis in the operative
statute for the officer’s conclusion that both brake
lights—rather than just one—must be operational. Id. at
68 (majority op.). What mattered was whether the statute
supplied any basis to conclude the officer’s interpretation
was “at least . . . reasonable.” Id. The Court did not consider whether there might be good reasons to require
both brake lights be working as a policy matter. Nor did
the Court contemplate whether, for example, an officer
could draw a reasonable inference from whatever rules
governed headlights or tail lights.
A narrow focus on the closeness of the legal question
at issue is consistent with the Court’s explication that the
objective reasonableness is a more demanding test than
qualified immunity’s “clearly established” standard.

12
Qualified immunity doctrine presupposes that officers are
aware of all published judicial opinions in their circuit and
others such that if binding circuit court precedent—or a
chorus of out-of-circuit courts—have “placed the statutory or constitutional question beyond debate,” the officer
is not immune. Ashcroft, 563 U.S. at 741. The more demanding standard established by Heien must at least require officers to correctly apply clearly written statutes.
II. This Case Does Not Implicate Any Conflict in the Lower
Courts

Petitioner erroneously contends (at 7-8) that the
Michigan Court of Appeals’ decision implicates a conflict
in the lower courts over whether “Heien requires statutory ambiguity.” To the contrary, every case Petitioner
cites turned on whether the mistake at issue was reasonable. Those courts that considered statutory ambiguity
did so only as an indicia of the reasonableness of the mistake, not as a necessary predicate to a finding of reasonableness.
1. Petitioner (at 7-8) cites three “similar” cases in
which courts “upheld the stop.” As Petitioner concedes
(at 7), Atwood v. Pianalto, 350 P.3d 1048 (Kan. 2015), did
not concern a mistake of law. Instead, the Supreme Court
of Kansas determined only that an officer’s mistake of fact
was objectively reasonable. Id. at 1053-54. The court
therefore had no reason to consider whether the relevant
statute was ambiguous or whether the officer acted pursuant to a reasonable understanding of the statute.
Likewise, in United States v. Blackburn, No. 01-CR86, 2002 WL 32693714 (N.D. Okla. Feb. 20, 2002), the
court also characterized the officer’s mistake as one of
fact, not of law, and explicitly distinguished the facts of
that case from scenarios in which an officer acts based on
an mistaken or erroneous interpretation of a state statute.
Id. at *3-4. And the court concluded that, despite the

13
mistake, the officer “had a reasonable articulable suspicion” that a violation had occurred. Id. As in Pianalto,
the court had no reason to consider whether the applicable statute was ambiguous.
Although the third case that petitioner cites—Harrison v. State, 800 So. 2d 1134 (Miss. 2001)—did involve a
mistake of law, it is also not evidence of Petitioner’s supposed circuit split. First of all, that case pre-dates Heien,
and therefore does not purport to interpret it. Second, the
opinion plainly turned on whether the mistake at issue
was reasonable, not on the presence or absence of statutory ambiguity.
In Harrison, officers stopped the defendant because
he was driving faster than the posted speed limit in a construction zone. The Supreme Court of Mississippi later
determined that the speed limit applied only when workers were present. The court explained that “the stop was
based on a mistake of law.” Id. at 1138. But the court
concluded that “the deputies had an objectively reasonable basis for believing that Harrison violated the traffic
laws” because the defendant was traveling faster than the
posted speed limit. Id. at 1139. The court implied that the
law was confusing but did so only in reaching the conclusion that the officers had a “valid reasonable belief” that
the defendant “was violating the traffic laws.” Id.
Petitioner is wrong to suggest (at 7-8) that the outcome of this case would have been different had it been
decided by the courts who decided Pianalto, Blackburn,
or Harrison. Like the Michigan Court of Appeals, those
courts considered whether the officers made reasonable
mistakes. And like the Michigan Court of Appeals, those
courts would have concluded that Deputy Madsen’s mistake was unreasonable because a “reasonably competent
law enforcement officer” should have known that the
speed limit was 55 miles per hour.

14
2. Petitioner also wrongly contends (at 8) that the
Michigan Court of Appeals’ decision here as well as two
other cases have “concluded that Heien requires statutory ambiguity.” As explained above, the Michigan Court
of Appeals decision did not turn on the clarity of the statute, but rather on the court’s conclusion that the deputy
“made an unreasonable mistake of law merely based on
an unsupported hunch” and therefore “did not have an objectively reasonable belief that probable cause existed.”
Pet.App.17.
The two other cases Petitioner cites also correctly applied Heien by considering whether the officers’ mistakes
were reasonable under the totality of the circumstances.
In United States v. Alvarado-Zarza, 782 F.3d 246 (5th
Cir. 2015), the Fifth Circuit considered whether an officer
made a reasonable mistake of law in stopping the defendant who failed to signal 100 feet in advance of a lane
change where the statute required signaling only for
turns. Id. at 248. In the course of a factbound discussion,
the court explained that the statute was unambiguous, but
did so to bolster its conclusion that “the statute facially
[gave] no support” for the officer’s interpretation of the
law, making the mistake of law unreasonable. Id. at 250.
In other words, like every other case Petitioner cites, the
Fifth Circuit’s analysis ultimately centered on whether
the officer’s mistake was reasonable.
Similarly, in United States v. Stanbridge, 813 F.3d
1032 (7th Cir. 2016), the Seventh Circuit concluded that
the officer’s mistaken understanding of the applicable
statute was “not objectively reasonable” because the statute was not ambiguous. Id. at 1037. Like in AlvaradoZarza, the court’s determination that the statute was unambiguous merely evidenced the officer’s “sloppy study of
the laws.” Id. at 1038 (citing Heien, 135 S. Ct. at 539-40).

15
In sum, Petitioner wrongly implies (at 5) that the
cited cases turned on statutory ambiguity or lack thereof.
Far from it: each of the cited cases center on whether or
not the officers’ mistakes were reasonable. That is the
Heien-mandated inquiry. The lower courts are not split
on how to apply Heien. Indeed, Petitioner’s cited cases
are evidence that the lower courts—including the Michigan Court of Appeals in this case—are faithfully applying
this Court’s instruction that whether a mistake can give
rise to reasonable suspicion hinges on whether the mistake was reasonable.
III. This Case Does Not Warrant This Court’s Review

This case does not present a question warranting this
Court’s review, for several reasons.
Start with the lack of conflict in the lower courts. As
explained above there is no widespread confusion over
how to apply this Court’s decision in Heien. See supra at
12-15. To the contrary, courts consistently and uniformly
apply Heien’s instruction that the Fourth Amendment requires that any mistake “whether of fact or of law . . . be
objectively reasonable.” Heien, 574 U.S. at 57 (emphasis
omitted). Petitioner’s complaint boils down to a dispute
over whether the Michigan Court of Appeals correctly applied that established standard, but this Court does not
ordinarily resolve that kind of factbound question.
Moreover, even if there were confusion over how to
apply this Court’s decision in Heien (there is not), this
case would be an exceedingly poor vehicle in which to address the question presented. Petitioner asks the Court
to “resolve a split on whether Heien . . . applies to situations where the law (once discovered) is clear but the circumstances make applying it uncertain.” Pet. 5. But the
Michigan Court of Appeals determined that there should
have been no uncertainty over how to apply the law here.
To the contrary, the court explained, “because the road

16
had no posted speed limit sign,” a “reasonably competent
enforcement officer should have known that” the speed
limit was 55 miles per hour. Pet.App.16 And the court
noted that Deputy Madsen’s mistake was unreasonable
because his decision was “based on an unsupported
hunch,” not on any particular circumstance that he was
confronted with. Pet.App.17.
In other words, the court below did not determine
that the officer’s mistake was unreasonable simply because the statute at issue was unambiguous. To the extent
the Court is interested in clarifying how its decision in
Heien applies in situations involving unambiguous statutes, this is not the right case for doing so.
Finally, even if this case presented the question Petitioner posits, and even if a conflict existed on that question, Petitioner has not demonstrated that the question
arises frequently enough to justify this Court’s intervention. There is no evidence that courts are inundated with
Fourth Amendment suppression hearings in which the
dispositive question involves a mistake of law of any kind,
much less the question whether a mistake of law was reasonable in light of an unambiguous statute. In short, there
is no evidence that is an area in which this Court’s intervention is necessary.

17
CONCLUSION

The petition for a writ of certiorari should be denied.
Respectfully Submitted,
EDWARD J. STERNISHA
LAW OFFICE OF EDWARD J.
STERNISHA, PLLC
330 Fuller Ave NE
Grand Rapids, MI 49503

LISA S. BLATT
Counsel of Record
CHARLES L. MCCLOUD
KIMBERLY BROECKER
HELEN E. WHITE*
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, NW
Washington, D.C. 20005

AUGUST 20, 2021

*Admitted to practice only in MA. Practice in the District
of Columbia supervised by D.C. bar members pursuant to
D.C. App. R. 49(c)(8).

